<html>
<title> - THE PRESIDENT'S BUDGET REQUEST FOR THE DEPARTMENT OF ENERGY FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-292]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-292
 
                     THE PRESIDENT'S BUDGET REQUEST
                      FOR THE DEPARTMENT OF ENERGY
                          FOR FISCAL YEAR 2020

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2019

                               __________
                               
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
 
 
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-262              WASHINGTON : 2020 
         
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                Renae Black, Democratic General Counsel
                David Gillers, Democratic Senior Counsel
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     3

                                WITNESS

Perry, Hon. Rick, Secretary of Energy............................     4

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Manchin III, Hon. Joe:
    Opening Statement............................................     3
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Perry, Hon. Rick:
    Opening Statement............................................     4
    Written Testimony............................................     7
    Responses to Questions for the Record........................    59


                     THE PRESIDENT'S BUDGET REQUEST

                     FOR THE DEPARTMENT OF ENERGY

                          FOR FISCAL YEAR 2020

                              ----------                              


                         TUESDAY, APRIL 2, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order. We are here this morning to discuss the 
President's budget request for the Department of Energy for 
Fiscal Year 2020.
    Mr. Secretary, it is good to have you back in front of the 
Committee again. We appreciate it. It seems like it has been a 
really quick year, at least maybe for me, and I would imagine 
for you as well.
    We are back with a conversation again about the budget. In 
looking at the budget, actually many parts of this look 
familiar to where we were last year.
    I am pleased to see the President's budget seeks to 
increase funding to address vulnerabilities in our electric 
infrastructure. Ensuring the cybersecurity and resiliency of 
our nation's grid is really a top priority for many of us here 
on this Committee, so it is good to see your priority is here 
as well.
    These issues also fall squarely in our jurisdiction, which 
is why we have devoted significant time to these challenges, 
including in the area of electromagnetic pulses and geomagnetic 
disturbances. So, again, it is good to see the Department 
focused so keenly on them.
    While I do appreciate many parts of this budget, there are 
other parts that I will disagree with. It seems like we always 
get to the disagreeing part of it rather than the things that 
we do agree on. But there are significant areas--your focus on 
national labs, on the advanced nuclear, on the exascale 
computing, quantum information science--these are all matters 
that have come before our Committee that we have enjoyed some 
success in moving legislation out. So these are certainly areas 
of support.
    We have also been talking a lot in this Committee this year 
about the issues of climate, what we can be doing to reduce 
emissions more broadly, what we can do to enhance our 
efficiencies to reduce costs for power generation and really 
just be better environmental stewards.
    I think, as we talk about those opportunities moving 
forward, and we had a chance in the Appropriations Energy and 
Water Subcommittee last week with Chairman Alexander who chairs 
that Approps Subcommittee, talking about his Manhattan 
challenge for us if you will. Much of what he has outlined in 
terms of ways that we can make an impact really lies squarely 
within the Department of Energy.
    So it is somewhat disappointing to see the budget request 
again putting programs that promote energy innovation and 
cutting-edge science on the chopping block. I know many of my 
colleagues share the disappointment in the request to eliminate 
ARPA-E, a program that brings the private sector together with 
the national laboratories and universities to bridge the valley 
of death for emerging energy technologies.
    Your budget request also eliminates both the Weatherization 
Assistance Program and the State Energy Programs, and I will 
get a little parochial here because these are so important to a 
state like mine.
    I do appreciate the efforts of the Department to work with 
Alaska Native villages so that they, and tribes across the 
country, can access the Tribal Energy Loan Guarantee Program, 
but I am troubled that the budget request proposes to eliminate 
that program, just as it is now getting off the ground.
    These are the types of programs that help Alaskans as they 
are addressing the high energy prices, really the highest 
energy prices in the nation. And Mr. Secretary, when you were 
with me in the state, when we had an opportunity to go to 
Kodiak and to Old Harbor, you saw firsthand how these 
challenges that we face, I think, challenge us to be more 
innovative and to seize on some of the innovation opportunities 
that we're working to advance.
    You saw an electric grid powered by nearly 100 percent 
renewable energy in Kodiak, and then you saw the first stages 
of a small hydro there at Old Harbor. These are not only part 
of Alaskans' efforts to reduce greenhouse gas emissions, they 
also reduce the high cost of diesel fuel, which again you saw 
firsthand, so that residents can stay in their communities, and 
open up new economic opportunities.
    It is communities like these, spread all over our country, 
that stand by ready to innovate and transition to a cleaner 
energy future, but they need our help, and they need the help 
of the Department of Energy. Programs like those proposed for 
elimination, and offices like the Office of Indian Energy, are 
vital to our future and our ability to move forward.
    We all know that we need to make responsible cuts to the 
budget, but we don't want to forget the critical role that 
innovation plays for us in helping to create jobs, boost 
economic growth, increase competitiveness, and strengthen our 
long-term security.
    So upon initial review and without all the details of the 
budget, I do have some concerns about the proposals. I have 
outlined a couple. But I also recognize that this is a starting 
place, this is where we begin the conversation about your 
priorities, about the President's priorities, and the 
priorities of those of us here. And that from here it is 
incumbent on all of us to seek that common ground and areas for 
compromise.
    So I look forward to our discussion and then moving forward 
after this. Again, Mr. Secretary, I appreciate a great deal 
your leadership and being here this morning.
    Senator Manchin.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Madam Chairman, thank you again for 
gathering our Committee together today for this important 
hearing. And I want to welcome my friend, Secretary Perry. He 
and I have worked together a long time back in the good old 
days of being governors, and it is a pleasure to welcome you 
and your third presentation hearing before the Committee as 
Secretary of Energy, which I am understanding you consider your 
coolest job. Well I am happy to continue working with you in 
what I consider a new cool role as the Ranking Member, so it is 
going to be exciting.
    The energy sector is undergoing rapid change. The natural 
gas revolution is still going strong, the grid is getting 
cleaner and more efficient, and every day we have new cyber and 
resilience challenges to tackle.
    And the conversation around climate change is center stage. 
The conversation that we have had here, myself and the 
Chairwoman, has not shied away from that in this Committee. But 
when I look at the Administration's budget request, I am 
disappointed to see numbers that neither reflect the priorities 
of the Department nor get us where we need to go in order to 
tackle carbon emissions.
    Looking at the top line, the budget request proposes 
cutting non-National Nuclear Security Administration funding to 
the Department of Energy by over 25 percent. I think this 
proposal would limit the DOE in a number of critical ways, 
including its ability to maintain a global leadership role in 
research and development.
    In my view, the United States as a leader in energy 
production has a unique and necessary role to play in 
developing and commercializing innovative technology solutions 
for the climate problems that we are facing globally. The 
International Energy Agency, or the IEA as we know it, reported 
earlier this week that global energy demand grew by 2.3 percent 
over the past year, and fossil fuels met a lot of that demand 
and will continue to for some time.
    And that is going to be the story for the next few decades 
in part because the average coal plant in Asia is only 12 years 
old. The fact is that fossil fuels, including coal, will 
continue to be part of our energy mix. And if we can agree on 
that, it is clear as day to me that the United States needs to 
put its money where its mouth is in advanced solutions like 
carbon capture, storage and sequestration.
    It is also what the experts are saying. Dr. Birol, of the 
IEA, told the Committee just last month that CCUS may be the 
most critical technology that we can invest in. We need a 
moonshot when it comes to carbon capture, so I am working on 
legislation that will refocus the DOE on coal and natural gas 
RD&D. My hope is that between the brilliant minds at your DOE 
and our national labs and the private sector, we can crack this 
nut sooner than later. I think we can all agree that this kind 
of innovation is necessary to ensure economic competitiveness, 
environmental responsibility, energy security, and national 
security.
    In addition, we need to keep up the good work at the 
Advanced Research Projects Agency-Energy, or ARPA-E, which is 
another critical part of ensuring U.S. leadership in advanced 
energy technologies in a tech race with China.
    Then there is the Loan Program Office, which I am very much 
concerned about. A program with a high repayment rate that has 
made money for taxpayers, it is a perfect tool to promote 
public-private partnerships for innovative energy technologies, 
especially advanced fossil technology.
    I was very disappointed to see proposals to eliminate both 
of these valuable programs when right now we need to be 
fostering them.
    On the other hand, I was pleased to see that the budget 
request included a significant 30 percent increase in funding 
for the Office of Cybersecurity, Energy Security, and Emergency 
Response, or CESER for short. Our folks at NETL in West 
Virginia are responsible for managing about a third of that 
funding.
    I am also optimistic about what we can accomplish together 
this year on some of the tougher issues like nuclear waste 
storage and disposition. I look forward to working with you at 
the DOE and Chairwoman Murkowski and our Appropriations 
colleagues on that.
    I was also encouraged to hear that in your Appropriations 
hearing last week you expressed willingness to work with 
Senator Alexander on R&D goals. I share his desire to increase 
funding and focus the Department on those technologies that 
will achieve emission reductions. I will introduce R&D 
legislation of my own in the coming days, and I look forward to 
working with you as well as Senator Alexander, Chairwoman 
Murkowski, and other colleagues to get that across the finish 
line.
    I know that you share my desire to get the funding for DOE 
right, and I look forward to working with you on that.
    With that, Secretary Perry, thank you for joining us today 
and for all you do at DOE and for our country. I look forward 
to hearing your presentation.
    The Chairman. Thank you, Senator Manchin.
    Secretary Perry, it is indeed a pleasure to have you back 
before the Committee. We welcome your comments this morning and 
the opportunity to engage in a little bit of back and forth 
about this budget.
    So you may proceed.

       STATEMENT OF HON. RICK PERRY, SECRETARY OF ENERGY

    Secretary Perry. Madam Chair, thank you very much. Ranking 
Member Manchin and members of the Committee, it's an honor to 
appear before you today to discuss the President's FY 2020 
budget request for the Department of Energy.
    It continues to be a great privilege and an honor to serve 
as the 14th Secretary of Energy. It's a very exciting time to 
be at the helm of the DOE. I look forward to working with each 
of you on passing a budget that invests in the nation's 
priorities in energy and science and national security while at 
the same time continuing our shared support of innovations that 
have led to America's world leading yet often overlooked 
progress in reducing energy-related emissions.
    When I appeared before the Committee last year, I committed 
to rebuild and restore our nation's security to protect our 
critical electric grid and energy infrastructure from cyber 
threats, in particular, to improve the resilience and 
reliability of the nation's electricity system, continue to 
seek a federal disposal solution for the nation's nuclear 
waste, to invest in early stage, cutting-edge research and 
development and to advance our leadership in exascale and 
quantum computing.
    I'm proud to report to you that since then DOE has advanced 
each of those goals. This budget request of $31.7 billion seeks 
to build upon that great progress by making strategic 
investments that yield the best return on investment for 
taxpayers that benefit our country in the years to come.
    This budget is a request by the American people through 
you, their representatives in Congress, to secure America's 
future through energy independence, scientific innovation, and 
national security. As such, it represents a commitment from all 
of us at DOE to honor the trust of our citizens with increased 
stewardship, accountability, and commitment to excellence.
    This request supports the Department's vast mission in a 
fiscally responsible way. It makes clear that success will be 
measured not by the dollars spent, but by the results achieved 
on behalf of the American people by investing in reliable, 
affordable energy, transformative innovation, and national 
security.
    We're approaching the dawn of what I call the New American 
Energy Era, a time of energy abundance, security and, yes, I 
will say, even independence. American energy independence, it 
used to be a sound bite, but thanks to innovation, today it is 
a reality.
    The Department's world leading science and technology 
enterprise generates the innovations we need to fulfill our 
mission through support of our cutting-edge research at our 17 
national labs and, I might add, over 300 universities, many of 
whom or I should say, a number of them in your home states. We 
are expanding the frontiers of scientific knowledge and 
accelerating the pace of discovery to address our greatest 
challenges.
    This past fall I fulfilled a commitment to visit all 17 of 
our national labs and got to witness firsthand the brilliant 
work that's performed by these dedicated individuals. These 
labs have a rich history of science and innovation and together 
they have bettered countless lives around the globe.
    I'm especially proud of the work the labs are doing in 
collaboration with others to harness the power of our world-
class supercomputers to maintain America's leadership in high 
performance computing, advanced exascale computing, and push 
for breakthroughs in artificial intelligence.
    To do so, this budget proposes investments in early stage 
research and development that will focus the intellectual 
prowess of our scientists and engineers on the development of 
technologies that the private sector can convert into 
commercialized applications to improve the lives and the 
security of all Americans.
    This budget also requests significant funding to modernize 
the nuclear security enterprise, further our non-proliferation 
efforts, propel our nuclear navy at sea as well as simply to 
power the fleet of the future. As we work to include America's 
nuclear energy industry in our all-of-the-above strategy, we 
see great promise in next generation advanced reactor 
technologies.
    In the coming weeks and months I look forward to working 
with you, your colleagues and excellent staff here in Congress 
on the specific programs mentioned in the testimony and 
throughout the Department.
    Congress has an important role in the path forward. I met 
with many of you already. I look forward to deepening our 
partnership for the benefit of the people that we serve.
    On a final note, I would be remiss if I didn't take the 
opportunity to express my sincere gratitude to both of you, in 
particular, and the Committee as a whole, for approving our 
four remaining nominees. Our Senate confirmed key positions of 
leadership: nuclear energy, Office of Science, ARPA-E and my 
general counsel. Thank you. I never thought I'd be sitting in 
front of a Committee saying thank you for getting me a lawyer--
--
    [Laughter.]
    ----but after two and a half years without a lawyer, thank 
you very much for doing that.
    So anyway, I look forward to working with you in this new, 
I said this earlier, this New American Energy Era. And you have 
my pledge that at DOE we're going to continue to run the place 
efficiently, effectively, and to accomplish our mission driven 
goals of advancing energy security, economic security and 
national security for the American people.
    So with that, Madam Chair, thank you for your time and your 
partnership as we go forward. Certainly, Joe, thank you, 
Governor, for your whole friendship, and I look forward to 
continuing our work together.
    Thank you.
    [The prepared statement of Secretary Perry follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
      
    The Chairman. Mr. Secretary, thank you.
    I know members have a host of different questions. Let me 
begin by asking a question that I raise in every Committee that 
I am privileged to serve on when I have a member of the Cabinet 
in front of us. And this is the issue of the Arctic because we 
recognize, perhaps not every day, but I certainly recognize 
that we are an Arctic nation.
    We are an Arctic nation because of my state, but this is 
not Alaska earmarks. This is not just Alaska we are talking 
about. We are talking about the role that the United States of 
America plays with its other Arctic partners.
    Whether it is on issues of environment or research or 
development or indigenous peoples or defense, this is a 
significant part of the globe and I am trying to make sure that 
from the government perspective we recognize that there is a 
role there.
    As you know, we had previously, within the Department, an 
Arctic Energy Office. We, in the Appropriations Committee, 
certainly moved to help advance that last year. My hope would 
be that that is something that within the Department there is 
some recognition or consideration of reopening that Arctic 
Energy Office.
    We know that it is not just one office though that can 
constitute a policy initiative. When you were up in the state 
and, again, I thank you for the visit that you made, but 
shortly after you left, we had a conference at the University 
of Alaska Fairbanks. We hosted the National Lab Day. We had 
many of the directors of our national labs, and it was a great 
reminder of the collaboration that goes on with our labs and 
our universities. That is certainly one way that we can help to 
facilitate and do more when it comes to shining the light on 
Arctic issues.
    I raised, last week at the Appropriations hearing, the fact 
that we have only two Indian Energy Office employees in the 
whole State of Alaska. We would like you to take a look at 
that.
    But can you tell me, from the perspective of the Department 
of Energy, how you are prioritizing or recognizing the role 
that we play in the Arctic?
    Secretary Perry. Senator, thank you.
    I think it's important to come and to put boots on the 
ground, so to speak, to be there to see what all is going on in 
a particular part of the country. Being, you know, from a 
relatively tropical part of the United States and my history 
being in Texas and what have you, although I had been to Alaska 
a number of times, both as an Energy Committee member back as a 
state house member, to be there with you to go not only up on 
the North Slope but also to go into the community of Old Harbor 
and sit and talk to the Burns Family about the challenges that 
they have there and recognize that the United States is an 
Arctic nation. And I think that's sometimes very important for 
us to recognize that the United States is an Arctic nation.
    So the commitment to that region and to recognize the 
valuable resources that are encompassed in that area and the 
unique challenges that that has. Kevin Foster, who runs our 
Office of Indian Affairs, is very, very familiar with that area 
and let's expand the conversation about the office up there and 
the personnel side of it. But I want to make sure that the 
people of Alaska know that number one, we understand the 
challenges and the uniqueness of it but there are a lot of 
pieces of this puzzle, if you will. The architecture of the 
Arctic is part of the DOE's mission.
    So, you know, developing those resources, the rare earth 
minerals that are in that area and the innovation. You and I 
have talked about advanced reactors and how they can play a 
unique role up to and including microreactors out on the Adak 
peninsula for some defense needs out there and, frankly, for 
some of the private sector needs as well.
    We're going to assure you that the Department, through its 
partners and its activities, will continue using those Arctic 
energy resources in a very productive way.
    NETL's Arctic Energy Office is going to continue to 
coordinate with academia and other government agencies to 
demonstrate the value of Alaska's fossil fuel resources as well 
as hopefully some of our nuclear, obviously what you're doing 
on wind that we saw and the battery storage side of this.
    And I will just make mention that I think in the last two 
years this country has increased its solar energy production by 
90 percent. So an all-of-the-above strategy of which the Arctic 
is going to play an important role is not lost on us.
    The Chairman. Well I appreciate that and I would welcome 
further conversations about the specifics and, again, my 
continued interest in an Arctic Energy Office, recognizing that 
this goes far beyond just Alaska.
    But I know that you have been invited, certainly by the 
Arctic Circle Assembly, this is an annual gathering in Iceland, 
of those that are interested in all things Arctic but for you 
to speak to the level of innovation is something. It is a 
conference that I have attended on numerous, numerous 
occasions. I believe Senator King has joined as well, but it is 
something that you might want to consider. I will look forward 
to further discussions on that.
    Let's go to Senator Manchin.
    Senator Manchin. Madam Chairman, I am going to defer to 
Senator Stabenow who has another pressing committee meeting.
    Senator Stabenow. Well, I appreciate the courtesy of my 
colleague and leader. And thank you to both of you, and 
welcome, Secretary Perry.
    This is the third time you have been before the Committee 
in terms of the budget. And while it is good to see you, I have 
to say that while you are talking about a New America Energy 
Era, unfortunately what I see in the energy budget is a budget 
that guts programs that support American ingenuity and our 
global preeminence in fields like advanced manufacturing, clean 
vehicle and energy technologies, and cutting-edge research.
    Now I will say there is an exception to that. I want to 
thank you for your continued support because this budget does 
include funding for what we call the FRIB project at Michigan 
State University, which I have talked to you about a number of 
times--the Facility for Rare Isotope Beams which will be the 
world's most powerful radioactive beam facility and will 
advance new defense, environmental, and medical technology. So 
I am very appreciative that this project is continuing and the 
support is in here for that.
    But frankly, when I look at the rest of the budget, it is 
very concerning to me. I know that you said this is a starting 
point for discussion and that you are committed to working with 
us, but the budget is a clear statement about what the 
Administration does and does not prioritize.
    What we have is an overwhelmingly prioritized budget on 
fossil fuels at the expense of clean energy and advanced 
vehicle technologies and domestic manufacturing.
    When you look at the budget calling for the repeal of the 
tax incentives for electric vehicles, renewable energy and 
energy efficiency, I am really glad Senator Lamar Alexander and 
I are putting in the bill in the next few days that would 
actually extend the cap so that we could have more consumer tax 
credits for electric vehicles. This budget does away with that.
    You cut the Office of Energy Efficiency and Renewable 
Energy by 86 percent; advanced manufacturing by 75 percent; 
vehicle technologies by 79 percent; eliminate ARPA-E that you 
talked about earlier; Title XVII; the advanced vehicle loan 
program. I mean, just on and on and on. And yet, renewable 
energy is the fastest growing source of U.S. electricity and 
the future of transportation as we know it is in electric 
vehicles and alternative fuels, which we need to be working 
with the industry on to help them to be able to get there.
    And then finally, I have to underscore that we have the 
disastrous effects of carbon pollution right in front of our 
face every single day now--the atmosphere heating up as a 
result of carbon pollution and what is happening in the swings 
in snow, rain, drought, wind, and fires. In fact, we are now 
working on the Floor on a disaster package that is a result of 
not tackling carbon pollution.
    So while I come from a state, I am very proud to say, that 
really led the industrial revolution, and we certainly 
benefited from the power of fossil fuels, we better be paying 
attention now to what is happening here or our kids and 
grandkids, frankly, are never going to forgive us for what is 
going on.
    Given the clear market trends, as well as what is happening 
here all around us, the science says we have 12 years to curb 
our emissions to avoid catastrophic global warming and the 
significant investments of our global competitors in clean 
energy, led by China. Why then is this Administration proposing 
to do the exact opposite, to really take us backward? I 
appreciate what you said, but the budget takes us backward. And 
how will this benefit us going forward with what we need to do 
in terms of jobs, clean energy, and tackling carbon pollution?
    Secretary Perry. Senator, absolutely.
    One of the things that I talk about on a fairly regular 
basis is the progress that the United States is making when you 
look at the emissions side of it.
    And I want to address directly your question about advanced 
manufacturing and what we're doing at Oak Ridge and the work 
we're doing there. As a matter of fact, I think it was last 
year, I drove up and down Independence Avenue in a vehicle that 
was made out of a carbon fiber that was hydrogen fueled. And 
that's the type of work that's coming out of our national labs.
    Senator Stabenow. With all due respect, I just want to say, 
I know. That's great. But you're not supporting the consumer 
tax credits to be able to allow people to purchase those 
vehicles until we get to a point where there's enough volume 
that the price comes down so that people can afford them. And 
that is my concern because I agree with you, there's incredible 
technologies that are going on, but the capacity to support 
their integration into the economy and for consumers having 
access is my concern.
    Secretary Perry. Well, and again, one of the things that I 
will share with you, as I did the last two times I was in front 
of this Committee, is the good news for me is I was an 
appropriator once upon a time and I've been a chief executive 
and I humorously say that my budget generally ended up as a 
pretty good doorstop when I was the Governor of Texas.
    I'm not making any comparables here, I'm just saying that I 
understand how this process works. And we're here to work with 
you, the members of this Committee, to come up with a budget 
that prioritizes what's important.
    And we can quibble about maybe what the amounts are, but I 
think we do share, we have a shared interest, in not only 
American technology leading and being sent around the world, 
whether it's, you know, carbon capture utilization technology 
that could go to China and into India to start making some real 
progress. American LNG into the European to push away from 
older, inefficient, dirtier burning power plants. That's the 
type of progress that we've seen in the United States. We've 
had the greatest reduction in emissions in this country in 
history, according to the IEA.
    So I think we're headed in the right direction. Are we 
going as fast as some people want us to? Probably not. But the 
DOE and our continued innovation in our national labs, Senator, 
I think, are going to play a very important role as we go 
forward in that. And we'll commit, obviously, to continue to 
work with you to find the ways that American technology, 
American innovation, you know, American vehicles are leading 
that charge to address the issue of emissions and obviously, 
creating good paying jobs in the United States.
    Senator Stabenow. Well, thank you.
    Thank you, Madam Chair.
    And I would just say I think this budget would make a good 
doorstop.
    Thank you.
    [Laughter.]
    The Chairman. Thank you.
    Let's go to Senator Cassidy, please.
    Senator Cassidy. Hello, Mr. Secretary.
    Dr. Birol, the IEA Director, testified before the Committee 
a few weeks ago telling us that carbon capture, utilization, 
and storage (CCUS) is the most critical technology we can do to 
lower our emissions aside from maybe the continued use of more 
natural gas and renewables. And you have been committed to 
that. I appreciate that.
    But I guess as we are looking at this kind of nexus, if we 
are looking at carbon capture, utilization, and storage, I 
think most of the research has been with coal. And yet, natural 
gas is an increasing amount of our feedstock for our grid.
    So to what degree is the research being done on CCUS being 
directed toward the increased use of natural gas on our grid?
    Secretary Perry. Okay.
    Senator, we've got a couple, just to be really specific, 
we've got a couple of funding opportunities here of about $60 
million--
$30 million of that from some front-end engineering and design 
on carbon capture systems and then we've got a FOA that's out 
at 
this particular point in time for the same amount, $30 million,
to continue the Carbon Storage Assurance Facility Enterprise 
(CarbonSAFE).
    And you know, one of the first projects I went to not only 
observe but to officially open as the Secretary of Energy was 
just outside of Houston, the Petra Nova project. It was coal. 
It was a coal plant taking 95 percent of the emissions out and 
then taking those emissions, shipping them some 75 miles away 
to a crude oil field where it was used for, excuse me, tertiary 
recovery and had a pretty massive effect on that oil field.
    So the stories that are out there and the real-life 
examples of this, I think, have a great role to play, not just 
in the United States, but particularly getting outside of the 
U.S.
    Senator Cassidy. I agree with that, but what I understand 
is that, for example, the oxygen content of natural gas 
emissions is higher so that presents a different issue than if 
it is just coal. In that sense, the BTU per carbon footprint is 
so much better with natural gas than coal that you actually 
have less CO<INF>2</INF> being spun off so that in itself 
presents challenges.
    Secretary Perry. Correct.
    Senator Cassidy. And so, to what degree is the research and 
yet we have seen that the percent of feedstock that natural gas 
represents in terms of generating electricity continues to 
climb. I guess my question is, to what degree is the research 
being promoted by the Department of Energy recognizing that 
natural gas has its unique issues and that it is an increasing 
amount of the grid so therefore the research needs to be 
specific for the natural gas product, if it will?
    Secretary Perry. Senator, let me get back with you with any 
specificity about what the Department is doing on the specific 
issue of what you asked about on natural gas.
    Senator Cassidy. I am good with that.
    Secretary Perry. Great.
    Senator Cassidy. Next, let's talk about the SPR, Strategic 
Petroleum Reserve.
    Secretary Perry. Yes, sir.
    Senator Cassidy. Just your thoughts.
    Obviously we have increased production in the United States 
and we still have this large storage of oil. What are your 
thoughts since we are producing so much more as to the 
continued need of and long-term outlook for the SPR?
    Secretary Perry. Yup.
    Senator, I think it's really a timely discussion to have 
about the Strategic Petroleum Reserve, as everyone around the 
table and hopefully most of the public knows it was created 
right after the, you know, after the mid-'70s and the oil and 
gas crisis that we had in that period of time.
    It was put in place not only as a national security issue 
but as a reserve in case of a major national disaster. We 
tapped into it a number of times, our states having had 
hurricanes, certainly after Sandy. And having a national 
petroleum reserve, a Strategic Petroleum Reserve, makes sense.
    Now the world has changed in the last 42 years since it was 
created. Number one, that the United States now is the number 
one oil and gas producing country in the world. Do we need that 
big of a reserve, particularly with the growth of the pipeline 
infrastructure that we have and the growth in that 
infrastructure that's going to occur over the next decade?
    I mean, we're going to see massive amounts of pipelines 
being built around the country that can be part of a reserve. 
We have a requirement internationally to keep a certain amount 
of crude available for our international partners, but I think 
you're absolutely correct in having a public dialogue about 
this. Is the SPR the right size? Can we contract it? Can you 
rent part of it out to the private sector for storage?
    I mean, I think all of this is an appropriate discussion. 
It's time to renew this, the focus on this and potentially, 
certainly, I leave it up to you members of Congress but I think 
you'll get it right. But it's time to have this conversation 
about do we need to modernize the Strategic Petroleum Reserve?
    Senator Cassidy. I am out of time, but I will say that I 
have an interest as well in the benefit to the federal taxpayer 
of leasing out some of that excess space.
    Secretary Perry. Yes, sir.
    Senator Cassidy. It would save a lot of future development.
    But I yield back. Thank you. Thank you. Mr. Secretary.
    The Chairman. Thank you.
    I know that, certainly in this Committee, we focused on the 
need for that modernization to make sure that it was able to do 
what we expected and anticipated. I am trying to remember when 
we got that report but thanks for bringing that question up.
    Senator Manchin.
    Senator Manchin. Madam Chairman, I also defer to Senator 
Hirono who has another pressing meeting.
    Senator Hirono. Thank you very much, Senator Manchin.
    Mr. Secretary, it is not unexpected that an Administration 
that does not acknowledge the science behind global warming 
would come up with a budget that continues a commitment to 
supporting the fossil fuel industry, even if the budget cuts 23 
percent from the Fossil Energy Office. But when you look at the 
other cuts to the renewable energy side, you see either total 
elimination of programs or cuts along the vicinity of 86 
percent, this is not really going in the right direction as far 
as I am concerned.
    In the year since you testified to this Committee, 
California and New Mexico have joined Hawaii in requiring the 
states to get 100 percent of their electricity from carbon free 
resources by 2045. What Hawaii and other states need is a 
federal partner to work with states and businesses to solve the 
challenges involved in transitioning to 100 percent clean 
power.
    If Congress provides more funding for renewable energy and 
energy efficiency than what you have put in the budget, will 
you commit to supporting the states' efforts to transition to 
100 percent carbon free energy?
    Secretary Perry. Senator, you know----
    Senator Hirono. Yes would be a good answer.
    Secretary Perry. I am sorry.
    [Laughter.]
    Senator Hirono. Go ahead.
    Secretary Perry. I apologize, Senator, you go ahead.
    Senator Hirono. No, I would just like a yes answer from you 
for that.
    [Laughter.]
    Secretary Perry. I know----
    Senator Hirono. I long for a yes.
    [Laughter.]
    Secretary Perry. ----I know what your yes answer----
    [Laughter.]
    ----your answer you're looking for.
    Having been a former governor, you know, I am very 
supportive of states, by and large, making their own decisions 
about what direction they want to go and I'm certainly going to 
respect that with those three states. Texas may have a 
different idea about which direction they want to go, and I'm 
going to respect that as well.
    But let me just say that I'm going to follow the lead of 
this Committee from the standpoint of what you find is your 
funding priorities. We will take those dollars and we will 
spend them as efficiently and effectively as we can and 
hopefully to you, as a whole, will say that we followed your 
directions.
    Senator Hirono. That sounds like I could give you more 
money on the renewable side that you will work with the states 
to enable them to get to their goals. That's what it sounds 
like to me. So is that accurate? Yes?
    Okay, going on to ARPA-E. ARPA-E, as you well know, is an 
innovative research model at DOE that has demonstrated 
remarkable success in its short life span. But once again, the 
Administration is proposing eliminating ARPA-E, an idea 
Congress has rejected the past two years.
    Will you commit to dispersing funds to eligible ARPA-E 
projects within a reasonable time consistent with past 
practices and not withhold Congressionally-appropriated funds? 
Mr. Secretary?
    Secretary Perry. I'm sorry.
    Senator Hirono. Okay, so----
    Secretary Perry. I'm having a hard time hearing you, 
Senator. I apologize. I know we're on ARPA-E.
    Senator Hirono. Yes. The Administration wants to eliminate 
the program but there's already appropriated amounts----
    Secretary Perry. Right.
    Senator Hirono. ----in this program.
    And my question to you is whether you will commit to 
dispersing the funds to eligible ARPA-E projects within a 
reasonable time----
    Secretary Perry. Yes.
    Senator Hirono. ----consistent with past practices? Good.
    Secretary Perry. Sorry.
    Senator Hirono. Getting back to renewable energy. For the 
third time in a row, the budget proposal goes in the wrong 
direction by slashing renewable energy and energy efficiency, 
this time with cuts of $2 billion, or 85.6 percent, from the 
levels set last year when Republicans controlled both chambers 
of Congress.
    This year's budget for the Energy Efficiency and Renewable 
Energy Office, EERE, includes $353 million that Congress 
already gave EERE last year but that DOE has not yet awarded at 
the time the budget was being put together late last year. But 
the EERE Office, as Congress intended, has continued to 
allocate the funds to support energy efficiency and renewable 
energy research and development.
    So, if Congress actually followed your recommendations, 
EERE would not only face a drastically smaller budget going 
forward but would also have to cancel funding already announced 
to support renewable energy efficiency research and 
development. Isn't that correct? You will actually have to 
cancel the funding if we went along with your budget.
    Secretary Perry. Senator, again, I kind of get the process 
here and I'm, you know, this isn't a take it or leave it budget 
that we've obviously laid out here in front of you and we're 
going to work with this Committee. So I'm going to tell you 
that the dollars that we have been placing out in the field are 
making a difference now.
    We just announced the largest solar funding opportunity in 
the history of the Department, just this week, 150 or excuse 
me, $130 million in new research in advanced early stage solar 
technology.
    So I recognize the conflict between the budget that's laid 
out but I know what reality is and between 2016 and 2018 solar 
generation in this country increased by almost 90 percent and 
we also see wind energy, this coming year, surpassing hydro for 
the first time in history. So there's actually some pretty 
positive stories, Senator, that's ongoing and a substantial 
amount of that because of innovation that has come out of the 
Department of Energy. We're going to continue doing that.
    And most importantly, I think for you, is that you 
appropriate these dollars and we're going to spend them as 
efficiently and effectively as we can to meet the directions 
that this Committee and Congress gives us.
    Senator Hirono. Madam Chair, there's going to be, there 
will be consequences if they have to cancel funding that's 
already been passed and announced by the DOE. I don't know that 
the Department has figured out what the consequences will be, 
but there will be some.
    Thank you.
    Secretary Perry. Senator, just for the record. Any program, 
new project that we have committed to, we've got to finish the 
funding for it. So, I'm pretty sure that's statute.
    The Chairman. That's the way we want it to be.
    Senator Gardner.
    Senator Gardner. Thank you, Chairman, and thank you, Mr. 
Secretary, for your time and testimony today and your service 
to the country.
    I think I appreciated the statement you just made. This is 
not a take it or leave it budget, I think is what you said to 
Senator Hirono. I think you also talked about being able to 
work with Congress with whatever is budgeted, that Congress 
passes, the appropriations bills we move forward, that you will 
use those dollars appropriately, responsibly, and according to 
the law.
    With that in mind, I think, I just wanted to highlight the 
National Renewable Energy Laboratory (NREL) in Colorado, 
estimated in 2017 the economic impact of more than $1.1 billion 
nationwide for Colorado's economy. That was about $750 million 
of economic impact.
    So obviously the Office of Energy Efficiency and Renewable 
Energy, which is NREL's steward and primary funder, is a very 
important component for Colorado, and I think you have given me 
the assurance through the answers to others but would just like 
to hear it. Will you execute the budget Congress provides you 
so that we can continue to see these good returns on federal 
research investment as evidenced by this University of Colorado 
report that showed that $1.1 billion economic impact?
    Secretary Perry. Yes, sir.
    As a matter of fact, I think this budget actually includes 
an increase for NREL's facilities that you speak of.
    Senator Gardner. Yes and we are going to continue to push 
on NREL and others because, as you know, you and I had the 
chance to visit NREL. We had a great visit to the lab there. I 
think we painted some solar panels which was pretty incredible.
    And congratulations to you on visiting all 17 national 
laboratories last year. They had a great employee visit town 
hall with the NREL staff and staff members.
    In your testimony you talked about the work that NREL does 
and other labs do, the core research of these facilities. Could 
you talk a little bit more about your plans for the NREL Flat 
Irons campus for megawatt scale grid integration testing and 
cybersecurity?
    Secretary Perry. Well, that's obviously, there's a number 
of things that come together here. Obviously, the innovation 
that's coming out of labs like NREL with new technologies from 
the standpoint of--the Senator made reference to literally 
painting on to the surface of the top of a vehicle, for 
instance, a solar cell for lack of a better descriptive term.
    Senator Gardner. Yes.
    Secretary Perry. But the AI side of this, I think it's one 
of the things, Senator Heinrich, that we have the potential to 
change literally the world in these labs and the work that they 
do together. Our high-performance computing, our exascale 
computing and you know, hopefully very near in the future, the 
quantum computing capacity.
    Argonne, we were up at Argonne two weeks ago. A computer 
there that does one billion, billion, transactions per second, 
a quintillion. I mean, that's the power of what we're having 
the ability to do.
    So a lot of answers to questions on issues like energy, on 
emissions, on some things that really vex us today, we're going 
to have the potential to get answers to those in the not too 
distant future. And that's one of the exciting things about why 
focusing and, frankly, having the flexibility to move these 
dollars around in the DOE budget is so important.
    Senator Gardner. In your testimony you also touched on the 
importance of energy storage, advancing energy storage through 
the Advanced Energy Storage Initiative, including the Grid 
Storage Launchpad and supporting the research at the national 
lab system itself. So I am not going to ask a question on this 
because I want to get to a different question, but I want to 
continue to work with you on ways that we can increase 
research, increase research opportunities to help decrease the 
cost of energy storage. That is important to us.
    Secretary Perry. It's the Holy Grail.
    Senator Gardner. Yes, it is.
    Finally, I just wanted to talk about a bill that I have 
introduced to extend the life of the Grand Junction Disposal 
Cell. This is a particular issue in the Western Slope. This is 
a mill tailings disposal site in Grand Junction, Colorado, that 
can store as much as 230,000 cubic yards of additional 
material.
    So the reason this is important. From 1950 to 1966, mill 
tailings which were predominately sandy material in this area 
were available to private citizens and contractors who used 
them as fill material, building roads, concrete, and mortar in 
this area of Colorado. The radioactive mill tailings, of 
course, were then hauled to more than 4,000 private and 
commercial properties in the Grand Junction area. It was not 
until later that the Federal Government realized this was not a 
very good idea, and it was hazardous to people's health. So we 
created this disposal cell site.
    Can you talk about what steps DOE will have to start taking 
this year if the site's life span isn't expanded by Congress?
    Secretary Perry. Well obviously, under current law, the 
site is going to stop receiving material on September 30th, 
2023, and obviously unless reauthorized by Congress this 
initial closure will have to begin as early as this year. So 
thank you for bringing it up. I mean, this is a timely issue.
    Senator Gardner. These are tailings that would not be 
properly disposed of that----
    Secretary Perry. Correct.
    Senator Gardner. ----would be remaining on people's 
property that, yeah.
    Secretary Perry. And I mean, from a building construction 
standpoint, this could really be--have a negative impact on 
sites. You know, there are alternative location disposal sites 
in Utah and Texas. But this one that you speak about is really 
important for your part of the world. Anyway, we stand ready to 
work with you to find a solution on it, Senator.
    Senator Gardner. Thanks, Mr. Secretary.
    Thank you, Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Manchin, did you want to take your turn or turn 
to----
    Senator Manchin. I am going to defer to Senator Heinrich. I 
have a lot of busy people on my side of it.
    The Chairman. Alright, alright.
    Senator Heinrich.
    Senator Heinrich. Thank you. Thank you, both.
    Secretary, I was watching the President speak about energy 
last week and I learned something new. He said that if it 
doesn't blow you can forget about television for that night.
    I thought given your experience as Governor of Texas, where 
ERCOT has such high levels of penetration of wind energy, in 
particular, that you might have some expertise in how you 
manage all of those angry constituents when their TVs don't 
work. How did you pull that off?
    Secretary Perry. I didn't have an issue with that.
    Senator Heinrich. So you had wind penetration levels well 
above 30 percent going on 40 percent and you did not have 
people calling up your office?
    Secretary Perry. You've got to remember Texas is a pretty 
big state, sir.
    Senator Heinrich. Okay.
    You might want to share that perspective with the big boss 
in the White House.
    Secretary Perry. Absolutely.
    Senator Heinrich. We have similar experience in New Mexico. 
We don't have quite the level of generation, but we are going 
on two gigawatts and we are still growing. And everybody's TVs 
seem to be working just fine.
    I want to ask you about, I am sure you are familiar with 
Urenco USA's nuclear enrichment facility that is just inside 
New Mexico on the New Mexico-Texas border. They have been up 
and running since 2010. They are currently meeting more than a 
third of the U.S. demand for utilities for enriched uranium.
    I bring this up because, in your budget, there is well over 
$100 million to demonstrate a domestic enrichment technology 
through a sole source contract for what effectively already 
exists in the private sector. Why should taxpayers be on the 
hook for a single dollar for something that is already up and 
running in the private sector?
    Secretary Perry. Senator, I'll see if I can get this as, 
you know, as simplistic as I can because for my purposes it is 
relatively straightforward. The company I think that you make 
reference to--and this is in your home state?
    Senator Heinrich. Centrix--Urenco is in New Mexico.
    Secretary Perry. Right.
    Senator Heinrich. I think Centrix is----
    Secretary Perry. That company is not a United States-owned 
company and that is the real key here. We need a domestic 
supply of this high-assay uranium product if we're going to 
have a fuel for advanced reactors. And I think, I hope, all of 
us are very much in favor of having these advanced reactors.
    Senator Heinrich. Why would you have that require--
commercial reactors don't require that requirement. We----
    Secretary Perry. Senator, I'm just telling you that's----
    Senator Heinrich. They are already supplying reactors all 
over the United States. How is it different if you have a small 
modular reactor, a pebble bed reactor? How is that different 
than all of the other second generation, nuclear generation 
technology?
    Secretary Perry. Yes, sir.
    And it has to do with the Department of Defense requirement 
into restore that market. So, you know, I think there's a clear 
understanding when you're talking about something as sensitive 
as a DoD-related type of a reactor that you want that to be----
    Senator Heinrich. Are we talking about DoD reactors or are 
we talking about private sector, next generation reactors?
    Secretary Perry. I'm talking about what they're doing with 
the advanced reactors may have a clear DoD nexus.
    Senator Heinrich. What does that look like?
    Secretary Perry. I'm not sure we can----
    Senator Heinrich. But it's clear?
    Secretary Perry. I don't know whether we can talk about it 
here.
    Senator Heinrich. That is convenient.
    Alright, let's switch gears.
    Secretary Perry. I would invite you to come to sit down in 
one of our secure skiffs and have the conversation about DoD's 
requirement on the bills.
    Senator Heinrich. I would be happy to do that.
    You were at CERAWeek in Houston and you said that you had 
thrown a lot of jello at the wall trying to find some way to 
subsidize aging uneconomical coal generation. You had a study. 
You proposed it for a quarter and an emergency declaration, all 
of those have, sort of, gone by the wayside now. Are we done 
trying to prop up generation that is no longer economical in 
the current wholesale market?
    Secretary Perry. Well, here's what I would tell you, 
Senator.
    If, you know, if the American people want to have one or 
two sources of energy that that's what they're going to rely 
upon and, you know, we have been blessed to have----
    Senator Heinrich. It seems like we have more sources and 
higher reliability than we ever had in our nation's history. So 
isn't this a little bit of a solution in search of a problem?
    Secretary Perry. No, sir. What it is, I think, is it's 
what's called leadership. It's about having a plan in place in 
case there are some things that happen. You know, we can have 
the defense of this country on the cheap if you want it.
    Senator Heinrich. I would suggest it is not about 
leadership; that it is about picking winners and losers.
    Secretary Perry. I mean, best I can tell, government picks 
winners and losers every day, sir. We certainly did in the 
State of Texas.
    Senator Heinrich. But we have a wholesale market that can 
do that based on the private sector.
    Secretary Perry. Yes, sir.
    And when the lights go out in Dallas, Texas, because you 
haven't put the right mix in, I know who gets blamed for that 
and it's the leadership of your state, it's the leadership of 
your country. And I think that's the point that the President 
is making is that we need an all-of-the-above energy strategy 
in this country.
    You bet, we have--we are blessed with natural gas right now 
and we love it, the State of Texas in particular likes that. 
But when you are blocking natural gas pipelines going to the 
Northeast, when you are literally limiting in Westchester 
County, New York, new gas hookups, because of the limitations 
that states are making on that type, maybe it's time for us to 
have a conversation in this country. Do we need to have a 
stable baseload of energy? And those are things that are 
uninterruptible. And the best I can tell, the only things that 
are uninterruptible in the energy industry are coal and nuclear 
and hydro.
    Senator Heinrich. I will leave you with one last thing.
    There are many coal-fired generating stations operating 
well below 40 percent capacity factors. That doesn't sound like 
baseload to me.
    The Chairman. Let's go to Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Mr. Secretary, great to be with you again. You and I have 
discussed in the past, and I will bring up again today, my 
opposition to the Department's practice in the past of 
bartering excess uranium to fund the cleanup and 
decommissioning of the Portsmouth Gaseous Diffusion Plant.
    GAO has repeatedly said that the barters are illegal. The 
barters have also contributed to record low uranium prices and 
put uranium producers in Wyoming and other states out of work.
    In 2018 U.S. uranium production was at its lowest level in 
the United States since 1950. Now last year I received your 
commitment to suspend the Department's uranium barter because 
the Department's practices were illegal and harmful to our 
domestic uranium producers.
    So I just ask, Mr. Secretary, can you again commit to 
suspending the Department's uranium barters and agree to 
working with Congress to fully fund the Portsmouth cleanup cost 
with Congressional appropriations?
    Secretary Perry. Senator Barrasso, I agree with you that, I 
think I've used the term, it's a pretty poor way to run a 
railroad and I still agree that the Congress needs to directly 
appropriate the money for Portsmouth and get out of the barter 
business.
    Senator Barrasso. The uranium plays such a vital role in 
maintaining America's national security. It powers nearly a 
quarter of the U.S. Navy's fleet. It keeps the lights on in 
around 20 percent of American homes and businesses.
    State-owned and state-subsidized uranium producers though 
in Russia, in Kazakhstan, in Uzbekistan, they are using unfair 
trade practices to flood the U.S. with uranium to the detriment 
of producers in Wyoming and across the country.
    Based on industry projections for 2019, American uranium 
producers estimate that they will supply less than one percent 
of American nuclear fuel. If this trend continues, we are 
likely to find ourselves wholly reliant on foreign suppliers of 
this critical element.
    Last July the Department of Commerce launched a Section 232 
investigation into whether uranium imports threatened to impair 
U.S. national security. The investigation is wrapping up and 
Secretary Ross will soon be delivering the findings of that 
investigation to the President.
    So then, I ask you, Mr. Secretary, do you believe that 
maintaining uranium production in the U.S. is critical to our 
national security?
    Secretary Perry. Yes, sir, is the point I was making to 
Senator Heinrich.
    Senator Barrasso. And have you and your staff urged the 
Department of Commerce to take meaningful action to address 
Russia and Kazakhstan's unfair trade practices?
    Secretary Perry. We tried. We tried to relay to all of the 
agencies of government, remind them of the key role that the 
nuclear energy industry continues to play in our country as 
well as the key challenges that we have.
    It is a very vital sector and whether it's the 
infrastructure of the nuclear energy side of things, the market 
valuation perspective that occurs and keeping that as a stable 
and viable entity is important in a number of areas, it's not 
just on the civil nuclear side, sir, but it's also on our 
ability to keep a trained workforce and a supply line on our 
ability to keep this country free with our nuclear enterprise.
    Senator Barrasso. Well, as we are here discussing this, 
upstairs I am chairing a hearing of the Environment and Public 
Works Committee where we are visiting with the Nuclear 
Regulatory Commission, all five members, and the issue that you 
just raised about the importance of a stable workforce is key 
to our agenda that we are discussing as well upstairs.
    Secretary Perry. Thank you, sir.
    Senator Barrasso. Do you know if you or anyone on your 
staff has had a chance to specifically speak with the 
Department of Commerce with regard to our concerns with the 
Section 232 investigations and where they are coming?
    Secretary Perry. Yes, sir, we have in the appropriate ways.
    Senator Barrasso. Thank you very much.
    You know, emerging technologies such as carbon capture, 
using that carbon, storing it, using it productively, these 
have all been potential--we have to reduce emissions while 
allowing for the use of the affordable, abundant sources of 
energy such as coal.
    If we can commercialize these technologies, we can protect 
the environment. We can ensure that coal plants remain in 
service and competitive in energy markets.
    A recent report noted the increase in the construction of 
coal generation facilities in China. Last year, Chinese coal-
fired power plant capacity under construction, just under 
construction, increased 12 percent.
    It is important that we develop and deploy effective carbon 
capture technologies for use by growing economies. I appreciate 
your Department's support of carbon capture, utilization, and 
sequestration technologies.
    Mr. Secretary, can I count on your continued support of the 
development and deployment of these carbon capture, 
utilization, and sequestration technologies in the next fiscal 
year?
    Secretary Perry. Yes, sir, Senator.
    Prior to you coming in we talked about some of the projects 
that we're funding now. There was a full $30 million that's 
gone out to Carbon Storage Assurance Facility Enterprise, and 
then there was another $30 million on front-end engineering 
design (FEED) of carbon capture systems. So not only do you 
have that commitment, we're sending dollars out the door to do 
that as well.
    Senator Barrasso. Thank you, Mr. Secretary.
    Thanks, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Manchin.
    Senator Manchin. I am going to take a shot myself this 
time.
    The Chairman. Alright.
    Senator Manchin. First of all, I want to thank you, 
Secretary, for being here as always and being candid where you 
are coming from and how we can work with you.
    Dr. Birol, Executive Director of the International Energy 
Agency, basically talked about carbon capture and 
sequestration.
    Everyone has a different opinion on fossil, whether we 
should have it or not have it. The reality of what we are 
dealing with in the world is that it is going to be used for 
quite some time because of the age of the plants. They are not 
going to time the plants out in Asia any time soon.
    We are decreasing our dependency on fossil. We see that, 
except we are increasing our demand for natural gas.
    My State of West Virginia, like your State of Texas, has an 
ocean of energy under us, so we are blessed both ways. But with 
that, carbon capture and sequestration, something he said, ``If 
you want to decarbonize, if you want to really help the planet, 
if you want to help global climate, you better find a way to 
capture carbon.'' So we are looking at a moonshot type of 
mentality. What type of a cost is that? We have people putting 
different types of costs. We have some people wanting to talk 
about using a carbon fee, and that is going to fix the problem. 
A carbon fee that goes to dividends, it is the first out among 
the populous, and does not fix the carbon problem.
    If you care about the climate and you want to fix it, you 
better find out how. Just eliminating fossil is not going to 
work around the world.
    And he has told us that basically if we eliminate it, the 
use of fossil for energy in the United States of America, it is 
going to make a blip on the radar screen compared to what Asia 
is doing for the next 30, 40 years. So we have to come to that 
reality.
    What would it take and are you committed? Do you have the 
same feeling of that? Have you all talked to Dr. Birol, what is 
going on in the demand for energy, because the 2.3 percent 
increase has all been just about fossil. It has been an 
increase of demand of energy and meeting that demand has been 
through fossil more than anything else in other parts of the 
world, which is where most of the demand is coming from.
    Secretary Perry. Senator, we, at the Department, we agree 
by and large with your assessment that I think by 2040, 70 
percent of the energy developed in the world will still come 
from fossil fuels.
    America has always been the place where innovation has come 
from, and unless we kneecap ourselves and by taking our ability 
to create the wealth that pays for the innovation, you know, 
American innovation will continue to be where people look, 
where we take and push out our ideas.
    When we're working with our Indian friends--I was in India 
last year, and we talked to them about our technology going 
over there, both CCUS, LNG, all of those, the project that we 
went and looked at in Morgantown, right outside of Morgantown, 
West Virginia, on the----
    Senator Manchin. Yes--coal-fired plant that was basically, 
that was using extreme heat.
    Secretary Perry. ----HELE plant there, the low emission, 
highly efficient, low emission plant there, pulverizing the 
coal and incredibly clean technology. That's what the world 
needs to see. We need to be able to deliver that type of 
technology and, you know, there may be some projects going on 
in different places around the world. I don't see it.
    As Germany is transitioning away from, you know, both 
nuclear power and shutting down coal plants, that was their 
goal. They've actually increased their emissions. While the 
United States is lowering their emissions, and we're lowering 
our emissions partly because of innovation, partly because of 
our transition to LNG, so.
    Senator Manchin. I am going to----
    Secretary Perry. That's--we can help the world get there 
but if we put ourselves at a competitive disadvantage----
    Senator Manchin. Yes.
    Secretary Perry. ----from an economic standpoint, we'll 
never be able to----
    Senator Manchin. Well, my thing is that, basically, if you 
really want to fix the problem, the way we did with the Clean 
Air Act back in the '80s and '90s, we made the people that were 
emitting the particulates responsible for cleaning it up and 
fixing the new technology. I think it is going to take the same 
thing here.
    For every $1 of a carbon fee that has been recommended, 
that would produce $5 billion in revenue. They are saying a $40 
fee is $200 billion, so that is $5 billion.
    I don't know what it is going to take for a moonshot to get 
people to act sooner than later, but we have got to do 
something that fixes the problem, not basically exacerbates the 
problem because you're turning your head.
    Real quick, you and I talked about a Category 5 hurricane 
coming up the Houston channel, and what it could do to 
devastate our energy production for the United States of 
America because most of it is in that corridor. You and I have 
also talked, Mr. Secretary, about potential for having 
diversification in the mid-Atlantic region where we have an 
abundance of propane and ethane. We have an abundance of 
natural gas coming from Marcellus and Utica. Rogersville is 
going to come on strong.
    What I would say is, to ensure that we have resiliency and 
redundancy built into our natural gas liquid sector in the 
event the Gulf Coast would get hit, are you all looking at that 
seriously advancing that as quickly as we possibly can to have 
that back up for security? And how does it play into the 
national security of our country?
    Secretary Perry. Senator, you and I have talked about this 
at length and, frankly, it's not happening as fast as I'd like 
to see it.
    Senator Manchin. No.
    Secretary Perry. Because I think there's extraordinary 
potential in those four states and the Appalachian region--
Pennsylvania, West Virginia, Kentucky, Ohio--sitting on top of 
the Utica and on top of the Marcellus. I mean, just amazing 
resources there.
    Senator Manchin. We have a deeper one too. We have 
Rogersville we just found.
    Secretary Perry. And I think it's Shell is building a big 
cracker plant just north of you. PTT has a plant that is still 
waiting on their final investment decision to be made, but I 
think that's going to happen, so----
    Senator Manchin. We are talking about the storage hub, you 
know, because we've got to keep that wet product.
    Secretary Perry. Yes, sir.
    Senator Manchin. And we have other countries coming at us 
so strong and so hard----
    Secretary Perry. Yes.
    Senator Manchin. ----speaking of Russia and China, that 
wants to buy every, every ounce----
    Secretary Perry. Yeah.
    Senator Manchin. ----of ethane and propane, take the wet 
properties out of the jurisdiction of the United States----
    Secretary Perry. And adding value to that gas, the jobs 
that get created, and great point you make about having a 
duplication of the petrochemical footprint in this country----
    Senator Manchin. Right.
    Secretary Perry. ----in case there is a Category 5 
hurricane up the Houston ship channel and it knocks that out 
for some period of time, you have an alternative there.
    This is a win-win for America. This is about American 
energy security. It's about American jobs. And you know, I hope 
we, collectively, the Administration, Congress, Democrats, 
Republicans, both look at this and go, this makes sense for 
America. It's the type of infrastructure we need to build.
    Senator Manchin. We need your help, sir.
    Thank you.
    The Chairman. Thank you, Senator Manchin.
    Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    Secretary Perry, good to have you here. I want to thank you 
for your commonsense, balanced approach as we think about 
America's energy portfolio going forward.
    I want to look at the budget for the Fossil Energy Research 
and Development. Your budget calls for 24 percent reduction in 
that budget.
    This office had funded a groundbreaking--the Petra Nova 
plant in your home State of Texas. I want to complement Texas, 
by the way, on being a great example of an all-of-the-above 
energy state and what you do there and did as Governor in 
Texas.
    More recently, Congress has previously funded this office 
in a significant way, and I hope we can do that again. I also 
want to make sure that money is spent where it is needed most.
    As we have spoken before, Mr. Secretary, the Colstrip power 
plant in Montana is one of the largest coal-fired plants west 
of the Mississippi. It is one of the largest economic drivers 
in Montana, and it is very well-suited for DOE investment. Over 
2,000 megawatts of power, 350 highly paid workers there, annual 
payroll $52 million, $104 million paid in state and local 
taxes. I can tell you that is a big number as we look at the 
revenue streams in the State of Montana.
    We noticed this winter that we had a really cold February 
and an unusually cold March. It was 40 below one morning. It 
was a Monday morning in March, and I was trying to fly back to 
Washington, DC, out of Bozeman. Deicing fluid doesn't work when 
it gets to 25 below or colder. We were sitting for two and a 
half hours waiting for the temperature to warm up to minus 25.
    It was interesting to see what happened on the grid in 
Montana when we were hitting this cold snap. I can tell you 
without certainty if we did not have the Colstrip power plant 
running then because the wind power had stopped at minus 23 
because of issues with the composites and structural 
challenges. They shut them down at minus 23 or colder. It was 
the coal-fired plants that kept the lights on for Montana 
during that cold snap.
    The challenge, if we lose Colstrip, it is baseload power, 
we risk hard-working jobs that boilermakers have, miners, other 
laborers, who call our beautiful state home.
    And Mr. Secretary, we are a state that still relies on 
hard-working Montanans where moms and dads, grandmas and 
grandpas can go down to Walmart and buy an elk tag over the 
counter for $20.
    Secretary Perry. Yeah.
    Senator Daines. The youth tag is $8 if you are 12 to 14 
years old, because it is something that all Montanans love to 
do or most Montanans do. We want to preserve that so it is not 
just the rich and famous that are locking up our state to a 
balanced approach to natural resources.
    Forty percent of that power flows to Washington State, and 
Governor Inslee continues to put politics between high paying 
jobs in my state, high paying jobs on the Indian reservations, 
and affordable baseload electricity. He is pressuring owners to 
get away from carrying coal-fired electricity as if electrons 
knew the difference.
    While I realize it is Texans are using power from Petra 
Nova, Colstrip is still very similar. That plant received over 
$190 million from DOE. Like Petra Nova, Colstrip is located 
near an EOR field that will require pipeline construction for 
carbon capture to help offset the economic costs of CCUS. And 
while we are making strides improving the economics of carbon 
capture, like the Section 45Q tax credit, I believe the future 
of this plant demands more investment from your Department.
    With that as background, I would like to get your thoughts 
on what you are doing to protect coal plants like Colstrip. It 
is baseload. It is jobs. It is tax revenue. It is the franchise 
for Montana right now, Mr. Secretary.
    Secretary Perry. Let me just briefly say that the 2020 
budget that is laid out in front of you is not at a level that 
would support a commercial scale operation for Colstrip that's, 
as you mentioned, similar to Petra Nova. And Petra Nova had 
received $190 million in stimulus funding from DOE and that was 
a $1 billion project which means the partners provided about an 
80 percent cost share.
    But we recently released an FOA for carbon capture at power 
plants. It's $30 million for FY'19, and that was directed by 
Congress and certainly could be of interest.
    It's the Administration's policy for us to be, DOE, to be 
focused on these early stage research and development 
opportunities, particularly where there's the potential for 
them to be commercialized and the technology to be 
demonstrated.
    So I think you know our commitment to the technology. I 
think, more importantly in a broader--just let me say as I wrap 
up here quickly, you're absolutely correct that we've got to 
have a portfolio that is broad in this country, that if we just 
make decisions about the economics, you know, there are cheaper 
ways to deliver energy in the country. Right now, we're blessed 
with an abundance of natural gas and God, I mean, thank God 
we've got that. But you never want to have that phone call that 
comes in and says, you know, we got people that are losing 
their lives in part of the state because we weren't willing to 
pay for a diversity to make sure that we had an all-of-the-
above energy strategy.
    It would be like saying that we're going to keep America 
free but we don't need x numbers of hundreds of thousands of 
soldiers, we can do it on with this many, we really don't need 
a--let's just have a 100 ship Navy because, you know, that's 
cheaper and we can use these dollars for something else. You 
can keep America free for some period of time on the cheap, but 
I'm not willing to bet the future of this country on it. And I 
hope that the people of this country aren't willing to 
basically say, we're going to have an energy strategy, a 
national security strategy, in this country that's just based 
on cost.
    Senator Daines. Thank you.
    My follow just is, can I get your commitment to work with 
me on ways to accelerate the DOE investment at Colstrip?
    Secretary Perry. Yes, sir.
    Senator Daines. Thank you.
    The Chairman. Thank you, Senator Daines.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Hello, Secretary Perry, I guess you know what I am going to 
talk to you about.
    Let me ask you this. In the President's budget, you request 
$116 million to restart licensing activities for the proposed 
Yucca Mountain Nuclear Waste Repository, which would ultimately 
bring high level nuclear waste to Nevada.
    Secretary Perry. Okay.
    Senator Cortez Masto. Do you want me to give you some time 
to get to----
    Secretary Perry. No, no, no, I'm set now. I'm ready.
    Senator Cortez Masto. Okay.
    And so, as you know, this is something that, for purposes 
of the State of Nevada, we have been fighting against. We are 
united from Republican and Democratic governors to our 
Congressional delegation. It is not safe for the storage in 
Nevada. And the concern we all have is the end run around the 
science.
    So let me ask you this, because I think it is still 
happening.
    On March 21st, 2019, the Defense Nuclear Facilities Safety 
Board sent you a report saying they are concerned that the 
Department of Energy has not adequately addressed the seismic 
hazards for the Device Assembly Facility (DAF) at the Nevada 
National Security Site (NNSS) and that a seismically induced, 
high explosive, violent reaction could result in unmitigated 
dose consequences to the offsite public. Predominately, the 
report states that DOE has not evaluated the impact of the 
increased seismic hazard on safety-related structures credited 
to protect public health and safety during a seismic event at 
the Nevada National Security Site. In fact, the most recent 
U.S. Geological Survey taken in this area lists the region to 
be a moderate to high seismic hazard.
    So my question to you is, have you taken these seismic 
hazard reports into consideration as you continue to push to 
open Yucca Mountain?
    Secretary Perry. Let me respond to your first observation 
which is the letter that you make reference to, and we 
certainly appreciate their input related to the need to update 
the seismic analyst, analysis rather, for the systems and the 
equipment that supports nuclear explosive operations at the 
Device Assembly Facility.
    Senator Cortez Masto. You have incorporated some analysis 
into this new seismic activity report that is coming in? We 
have it every single day coming into the University of Nevada 
Reno to show that there is moderate to high seismic activity 
there. Are you incorporating that into your analysis for 
reopening Yucca Mountain?
    Secretary Perry. I feel quite certain that we would, 
Senator.
    Senator Cortez Masto. That you would or you have not yet?
    Secretary Perry. That we would.
    Senator Cortez Masto. Okay.
    Secretary Perry. Yeah.
    Senator Cortez Masto. So what I would like to know is 
specifically what you are incorporating into your analysis? If 
you can share that with me, that would be helpful.
    The next question I have for you is, you may not know this 
but a handful of red flag exercises are held at Nellis Air 
Force Base, which is over at the Nevada Test and Training 
Range, in close proximity to Yucca Mountain. The purpose is to 
give our service members realistic training with real hardware 
and ammunition. Even former Air Force Secretary Heather Wilson 
has stated that, ``transportation of nuclear waste near the 
range could impact testing and training.''
    Do you think it is safe to store waste nearby, even with 
the threat that errant ordinance or any other mishap near Yucca 
Mountain could have an extremely negative impact on the 
neighboring public?
    Secretary Perry. I think it's safe, Senator. As a matter of 
fact, what I'd like to do is----
    Senator Cortez Masto. So can I see your analysis, instead 
of your opinion.
    Secretary Perry. ----invite you to come out.
    Senator Cortez Masto. I have been there. I have been there, 
sir.
    Secretary Perry. You've been to the DAF?
    Senator Cortez Masto. I have been there. And let me just 
say this, I would like to see your analysis as to why you think 
this is safe when the Secretary of the Air Force does not.
    And so, not only have I been there for the red flag 
exercises, I have been to Yucca Mountain. I have been to those 
facilities.
    Secretary Perry. But you've been to the device----
    Senator Cortez Masto. So I would like to see some analysis.
    Secretary Perry. ----because what we're talking about here 
is the, just so we're clear about what we're talking about 
because the Nevada site is a massively big piece of land.
    Senator Cortez Masto. Secretary Perry, I don't have much 
time, but you don't have to tell me that. I grew up in Las 
Vegas. I have family and friends who work out there. I have 
been out there.
    Secretary Perry. But I'm asking you, Senator, have you been 
to the DAF?
    Senator Cortez Masto. So I would like to sit down and go 
through this with you and show you why it is not safe and there 
are concerns about the safety there.
    I am running out of time.
    Let me ask you this. On October 20th, 2018, President Trump 
said to a Reno news station, regarding Yucca Mountain, and I 
quote, ``I think you should do things where people want them to 
happen. So I would be very inclined to be against it.'' That 
would be Yucca Mountain and opening it. ``And we will be 
looking at it very seriously over the next few weeks. And I 
agree with the people of Nevada who do not want Yucca Mountain 
to be a long-term, permanent repository.'' So my question to 
you is, does President Trump no longer agree with the people of 
Nevada when he expressed his opposition to Yucca Mountain?
    Secretary Perry. Senator, what I think we all have to 
recognize here is that Yucca Mountain is the law. And I'm going 
to follow the law. I think the President is going to follow the 
law. His opinion of whether or not the people of Nevada like it 
or not doesn't have anything to do with what the statute says. 
And the statute says that we are to continue with the licensing 
process for the Nuclear Regulatory Commission to make the 
decision on whether or not this is a safe site or not. It's not 
an issue of what someone thinks or what someone necessarily 
desires. I'm going to follow the law.
    Senator Cortez Masto. So let me ask you this, Secretary 
Perry, because I hear you say that constantly. I hear you say 
that constantly even though the previous Administration took a 
different path toward that in the Blue Ribbon Panel which has 
been disregarded by this Administration.
    But let me just follow up with this because you say this 
constantly. ``You're just following the law.'' And I just want 
to take a moment with respect to this issue.
    The Chairman. Very briefly please.
    Senator Cortez Masto. Thank you.
    I think it is important for people to know that this law 
was not born out of rational decision-making. It was 
intentionally created to do an end run around the science, 
compromise public participation, and was created intentionally 
to disregard Nevada at the expense of other states.
    And just very briefly, in 1982 the Nuclear Waste Policy Act 
directed DOE to study many sites to ultimately construct two 
repositories, the first one in the West and then one in the 
East. It limited the amount of waste the western repository 
would keep to ensure that the western location would not be the 
sole facility. By 1990, a second repository site was to be 
named amongst a short list of five other identified locations; 
however, DOE's list of sites for the second repository drew 
intense opposition from all of the affected states. And in 
1986, the Reagan Administration announced a halt to work on a 
second repository.
    When confronted with intense political pressure and high 
cost, Congress passed the NWPA amendment in 1987, which not 
only canceled the second repository program, it nullified the 
creation of a temporary storage facility that was supposed to 
be placed in Tennessee until after the licensing of the final 
repository and it statutorily designated Yucca Mountain as the 
site. Mr. Secretary, this historical context is key and it 
shows that extreme political influence was used to scapegoat 
the State of Nevada.
    All I am asking is for some reasonable people to come to 
the table to address this issue and recognize that, 
scientifically, this is not safe for Nevada. We need a consent-
based siting----
    The Chairman. Senator----
    Senator Cortez Masto. ----for everyone to be involved and 
not use Nevada as a scapegoat.
    Thank you.
    The Chairman. Thank you.
    Senator Cortez Masto. I appreciate the indulgence.
    The Chairman. I am very generous with my time.
    Let's go ahead to Senator Wyden.
    Secretary Perry. Senator, let me just wrap it up by saying 
that I hope you and I make the parameter for reasonable people, 
and I will work with you in any way that I can. And again, I 
want to offer you the opportunity to come out to the NNSS with 
me and let's continue the conversation and put boots on the 
ground at the site.
    Senator Wyden. Thank you, Madam Chair.
    Mr. Secretary, I want to ask you about two matters, 
primarily Bonneville, but just a quick matter on Hanford, where 
Senator Cantwell is going to zero in and is very knowledgeable 
in this area.
    You all are up to two things at Hanford. The first is you 
are looking at taking the high-level radioactive waste, which 
is the worst stuff, and calling it something less hazardous. 
And so, there is this, kind of, a name change. And you are 
adding budget cuts to it. So we have two bad things going on up 
there.
    Senator Cantwell, as I said, will get into all the details, 
but I would just like to ask for purpose of my first point, not 
a question, but I would like you to provide the Committee, 
particularly Senator Cantwell and myself, an explanation of how 
the types of budget cuts you are proposing, in addition to the 
reclassification operation, are going to let you achieve the 
milestones of the tri-party agreement. This is just yes or no. 
Will you get me an answer within ten days on that?
    Secretary Perry. Yes, sir.
    Senator Wyden. Thank you.
    Second, I want to get into Bonneville. So you all want a 
privatized Bonneville. And on this matter, Secretary, I want to 
give you an opportunity for some candor.
    You and I have had plenty of differences, but I have always 
found you to be candid when I have asked you about these kinds 
of issues. And a little bit ago, one of your Office of 
Management and Budget people who handles energy issues said 
that the Trump Administration is still going to propose 
auctioning off Bonneville to the highest bidder.
    Now this steals from every man, woman and child in the 
Pacific Northwest, our ratepayers, and is particularly bad for 
the rural areas. In other words, Senator Cantwell in Seattle 
and myself in Portland. The cities have a lot of, you know, 
opportunities, but these rural areas are just going to be 
hammered. And privatizing Bonneville would just amount to 
garden variety robbery for families in the Northwest, 
particularly the ones walking on an economic tightrope, 
balancing the food bill and the fuel bill and the fuel bill 
against the rent bill. They are already stretched very, very 
thin without the Administration trying to raise their monthly 
utility bills.
    I would like to give you an opportunity for that kind of 
Perry candor that we have been able to achieve a little bit 
from time to time in the office and give you the chance to take 
this colossally bad idea off the table this morning, 
privatizing Bonneville. Because I would just like to walk out 
of here and say, you know, something meaningful has been 
achieved this morning for the people that I have the honor to 
represent in the United States Senate, particularly in the 
rural areas.
    I am heading home for the break, going to have Town Hall 
meetings in these rural areas.
    Mr. Secretary, privatizing Bonneville hits everybody in the 
Northwest, steals from the families, but for the rural areas it 
hits them like a wrecking ball. It just clobbers them.
    So can we, for purposes of this morning, can we take this 
colossally bad idea to privatize Bonneville off the table with 
a little bit of Perry candor, and have you tell us we don't 
have to have people all up in arms in those rural communities I 
am going to be visiting here shortly?
    Secretary Perry. I will be as candid as I can, Senator, and 
I'll try to replicate my answer from previous questions on this 
and my past visits to the Hill. My position, relative to having 
been an appropriator, having been a chief executive and how 
these, this budget process works is still the same. I will 
suggest to you that this line item will end up like it's ended 
up in every previous Congressional----
    Senator Wyden. Freeze-frame with that right now. And you 
are fine with it ending up on the cutting room floor?
    Secretary Perry. Senator, I know how this process works and 
the budget process is going to be decided by those of you 
sitting on that side of the dais. I'm sitting on this side. I'm 
going to do what you tell me to do. You'll make the decision on 
whether or not. I'm sure there are a number of places on our 
budget that you and I may not agree 100 percent or even 50 
percent, but you're going to make that decision about where the 
appropriations are going to be.
    I'm going to----
    Senator Wyden. I am over my time.
    We are going to make sure it ends up on the cutting room 
floor, and I just hope you won't be trying to revive it after 
we do.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden.
    Senator King.
    Senator King. Thank you, Madam Chairman.
    Governor, Secretary, you have a very tough job coming into 
a hearing like this defending a budget that I think has some 
real problems.
    I think, first, and this goes to Senator Wyden's question 
and you have answered this several times, but I just want to 
have it absolutely clear. Will you commit to diligently and 
responsibly administering the budget that is passed for your 
Department by Congress?
    Secretary Perry. Yes, sir.
    And I hope that the activities and our work that we've done 
together is a pretty good reflection of that over the last two 
years.
    Senator King. Well, I actually checked on that and my 
impression is that that is the case, that you have pursued and 
funded those programs that were authorized and appropriated by 
Congress, even though they were not in the original budget. And 
I take it your commitment is that you will continue that 
policy.
    Secretary Perry. I respect this process, sir.
    Senator King. Thank you.
    Now there are some good things in the budget, and I think 
there are some things that should be recognized. One is an 
initiative on energy storage. This is one of the most important 
energy issues that faces this country. I am a little concerned 
I don't have much detail, but I hope that you can supply, 
perhaps for the record, a little more background about what 
that intention is and what the funding level will be, because I 
think that is a very important initiative.
    The CESER Office is a good initiative. I understand that is 
going to have an increase, the cyber office. I think that is 
important.
    Senator Manchin talked about carbon capture. I think that 
is important.
    My concern though is, and I think you understand this, 
basically you have said a couple of things today that indicate 
that you do. When we cut R&D, when we cut the kind of basic 
research that really only the Department of Energy can do 
because it is too early stage for the private sector, we are 
really hurting this country's future.
    I wrote down a couple things you said. Pretty positive 
stories due to innovations coming out of Department of Energy 
programs. Yes. So let's not cut the programs that have created 
those positive stories. The other thing you said is, ``America 
has always been the place where innovation comes from.''
    And as you well know, the fracking revolution, which is one 
of the great energy innovations of our lifetimes, came out of, 
in part, funding from the Department of Energy research and 
development fund.
    I understand that you are constrained by the budget that 
the Administration wants to submit, but please don't diminish 
your commitment to those R&D programs. That is where the future 
of this country hangs in the balance. And I think I understand 
the new initiatives, and I think they are important, but that 
R&D is important. And I am sure you recognize that.
    Secretary Perry. Yes, sir. We do.
    And all the way back to, again, my days as a chief 
executive in Texas creating offices that did just that.
    One of the things that we've done here, recognizing that we 
have, you know, parameters in the budget that we have, is to be 
able to do some crosscutting work, if you will, creating a 
Chief Commercialization Office at the Department to be able to 
oversee these projects, a technology transfer side of this too.
    And in my remarks, Senator, I talked about that, you know, 
I hope I don't get judged, I hope the agency doesn't get judged 
just on the amount of money that we spend on a line item, but 
on the results that we get from that.
    So, and I know, listen, I'm not Pollyanna here. I 
understand your concerns about particular line items and the 
reductions that are there, but I hope that you see in our 
performance from the last two years whether it's on the 
renewable side of things which folks, you know, were concerned 
about are you going be funding these types of programs, that 
you're seeing those types of efforts, that you're seeing the 
commitment to an all-of-the-above energy strategy whether it's 
CCUS, whether it's wind, whether it's----
    Senator King. Well, my problem isn't--you can make 
adjustments and you are talking about adjustments, but in the 
Office of Energy Efficiency and Renewable Energy, essentially 
there is an 85 percent cut. That is not a trim. When I put my 
rat in your trap, I expect him to lose his tail but not up 
behind his ears.
    Secretary Perry. Yeah.
    Senator King. And that kind of cut is, that just, it 
doesn't bear out. So that is the area that I hope we can work 
at.
    Budgets are policy, and essentially one of the things this 
budget says is we are not really interested in R&D and the 
future of those investments, except in certain areas.
    So I hope, again, to go back to the very beginning, that 
you will be diligent and fully responsive to the mandates of 
this Congress in terms of what----
    Secretary Perry. Yes, sir.
    Senator King. ----what the programs are, how they will be 
funded and how they should be administered.
    Secretary Perry. We will, Senator.
    Senator King. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Secretary Perry, this----
    Secretary Perry. Ready to go.
    Senator Cantwell. I am letting you get to your tab there.
    Secretary Perry. I'm there. I'm on you.
    Senator Cantwell. Well, this hearing is interesting this 
morning because, obviously, you are responding to this overall 
budget and many of my colleagues have different viewpoints on 
the President's proposed budget. You, as a skillful ex-
Governor, now Secretary of Energy, are coming here and 
basically telling us don't worry. I get it, like you guys are 
going to write a budget and you are going to have your day.
    I guess the challenge with all of that is that I think we 
live in a new world where getting consensus is the best way to 
move forward. I didn't coin that, somebody else did. Basically, 
in an economy where there is so much innovation and 
information, those people move ahead when they get around a 
table and get consensus around that science and information.
    The reason why I am asking you that is because when the 
people out at Hanford did the budget and said this is what it 
takes to comply with the tri-party agreement, they came up with 
numbers that now the Administration is ignoring.
    And so I am just trying to understand, if we are going to 
move forward on science and information, how can we have our 
own people out at Hanford come up with a number--I think the 
River Protection Compliance Budget was $1.8 billion--and the 
President's budget proposal only has $1.4 billion? The Richland 
Office Compliance Budget was $1.3 billion and the President's 
budget came up with $708 million. So the people on the ground 
who are working for you are putting numbers on the table and 
then the Administration or someone is making a decision that is 
different than that. And these are the people who have to meet 
the milestones of compliance.
    Now I know you have heard me say many times here, and I 
truly believe it, I am ready for an energy secretary for life 
or until Hanford is cleaned up.
    Secretary Perry. Yeah.
    Senator Cantwell. Why? Because I think every single energy 
secretary gets in your slot, they basically have to deal with 
the White House and they look at the Hanford budget and they 
think, oh, my gosh, it's in the billions of dollars. We can't 
possibly do that. I can come up with a better way, and I can 
figure out how to get it done. And I guarantee you, every one 
of those energy secretaries and White Houses have been thwarted 
on that.
    Why? Because it is the largest cleanup site in the entire 
world, and the complexity is off the charts. But that is what 
it is going to take to live up to our responsibility, having 
people scrub the numbers in the local community and submit 
them.
    And so I am just asking kind of the same question a lot of 
my colleagues are asking, how do we get around a table and get 
consensus on numbers that we all believe in as opposed to this 
continued back and forth? And I get it, I get what you are 
saying.
    Secretary Perry. Yup.
    Senator Cantwell. You are skillful at saying it. You are 
skillful at saying, yeah, I get it. Congress will end up 
writing this budget. But in the meantime, we actually have a 
legal document in the tri-party agreement that we have to live 
up to and we asked the people in the community, what does it 
take to live up to it? And their numbers are very, very 
different than what you and the White House are proposing. So I 
am just asking, how do we get on the same page here?
    Secretary Perry. Yeah.
    Senator, you bring up a really interesting point, and by 
the way, I am not going to be Secretary of Energy for life. Let 
me, kind of, go on the record.
    Senator Cantwell. That was a softball. That was a softball.
    I let----
    Secretary Perry. Here's what really concerns me is that we 
went back and the previous Administration, the best I can tell, 
didn't give you or this Committee or this Congress or, you 
know, the previous seven, eight years' worth of Congresses, the 
updated numbers on what Hanford was going to cost. We just got 
those for you, and those are stunning numbers. I mean, they 
are.
    And so my point, Senator, is that and you've got every 
right to be really upset that you haven't been given the right 
numbers of what's this really going to cost.
    Senator Cantwell. I think the local community did. I am 
saying that the Administration is----
    Secretary Perry. But I'm telling you----
    Senator Cantwell. The Administration is now saying they 
don't believe that is what it takes to meet compliance. And so, 
unlike my colleagues, I am not exactly here with an emphatic 
voice. Why? Because I know the voice of experience. I have sat 
here with energy secretary after energy secretary, and I do 
know the outcome. I know the outcome. And I know that in the 
end we will prevail.
    We have got to get on the same page because I guarantee you 
Hanford is never going to be done on the cheap, never. It is 
just not. And it is complex.
    Secretary Perry. You're absolutely correct.
    Senator Cantwell. And we have to get----
    Okay, my time is expired, and I don't want to use 
everybody's time.
    On the quantum issue, if you could just think about this. 
Obviously, the Chinese competition is so great. We, I think, 
authorized $1.2 billion. Your budget has money for one center.
    We were just out in Seattle with some of your team on a 
conference on this, and the one thing that struck me is that if 
you want to keep competitive--there are various aspects of 
quantum. There is the chemistry side. There is the algorithm 
side. There is the material side. I am just saying, I don't 
know if we can do our competitive aspect on quantum with just 
one Center of Excellence. I hope, as this Committee envisioned, 
we would have many Centers of Excellence, and that DOE would 
think about that and go back to what it is going to take for us 
to catch up on this issue.
    Secretary Perry. I think you're correct, Senator. And let's 
spend some time talking about it.
    Senator Cantwell. Thank you. Thank you. Thank you.
    The Chairman. Thank you, Senator Cantwell.
    I know that with the push that we have made here in the 
Committee on quantum and the priority that you are making it, I 
understand that there is more that is coming out for research 
on computing software out of the Department of Energy.
    I don't know if you have any updates that you want to share 
on that, but know that that is something that we certainly 
support.
    Secretary Perry. Yeah, we were just at Argonne three weeks 
ago basically announcing the computer that will be named 
Aurora. And I think I mentioned to the Committee the speed of 
that is a billion billion acts per second and gets us, that's 
the first exascale computer in, I think, 2021. It comes on 
board in 2021.
    So the U.S. has the number one fastest at Oak Ridge. Number 
two fastest out at Lawrence Livermore and when this computer 
comes on board, it will take that number one spot. So with all 
of that said, if we think for a moment that the Chinese are 
taking a pass here, we are very mistaken.
    The Chairman. You are not----
    Secretary Perry. We'll need to be spending substantial 
amounts of money and watching our technology very closely as 
they try to collect it and use it to get back in the lead in 
quantum or get the lead exascale in route to quantum computing.
    The Chairman. Well, Mr. Secretary, I know you have 
repeated, numerous times throughout the course of this 
morning's hearing, that you know how this budget process works, 
that we on the Committee have a very significant role in 
helping further define legislative priorities. Not only on this 
Committee, but in the other Committee which several of us serve 
on, on Appropriations for Energy and Water and helping to 
facilitate that. I do hope that you have heard very clearly 
some of the priorities that have been outlined here.
    Secretary Perry. Indeed.
    The Chairman. Whether it is Senator Cantwell's effort on 
the cleanup at Hanford, something that she has repeated year 
after year after year, whether it is the need to ensure that 
ARPA-E continues to do its good work, the efforts within the 
Office of Energy Efficiency and Renewable Energy, there's good 
strong support here for that. Support for the national labs.
    I have just introduced, along with many on this Committee, 
legislation that relates to nuclear and our advanced nuclear 
power. This is our NELA bill. We are certainly hoping that 
within the Department we will have many of your fine team 
helping us as we seek to regain leadership, world, global 
leadership when it comes to nuclear technologies and really 
that nuclear workforce.
    I mentioned in my opening the weatherization and the state 
programs again as priorities. Indian energy. Many have 
mentioned energy storage, the quantum initiative, the nuclear 
waste policy. So I think your folks and you have clearly heard 
where some of our priorities are in this area, and know that we 
will continue to work with you to help advance that.
    Senator Manchin.
    Senator Manchin. One quick question, and I know Senator 
King has one more too.
    I just want to clarify, Mr. Secretary, the budget that we 
have in front of us is one that needs to be worked on, as you 
know, both Democrats and Republicans have concerns. You have 
been great to work with. Your office has been great to work 
with. We all acknowledge that. You will continue because right 
now the signal being sent from this budget--I think that 
Senator King will mention also and Chairman Murkowski has 
mentioned--that it gives them a lot of concern, consternation.
    Whether it be the, you know, the low-hanging fruit of 
energy efficiency. That is a low-hanging fruit. I have had 
thousands of homes in West Virginia benefit, and 200 jobs are 
associated with it. They think that is going away. I want to 
make sure that we reassure them that this is a program and 
process in work, and you will continue administering what you 
have until you have a direction from Congress on how that 
spending will work out in your budget process. So there is no 
need for alarm right now. Should we send that signal that all 
is well and stable and we are on course?
    Secretary Perry. Sir, I would suggest that I hope we are 
sending the same signal that we sent a year ago.
    Senator Manchin. Yes.
    Secretary Perry. That, you know, sometimes you support a 
particular line item with a lot more zeal than you do another 
one.
    Senator Manchin. I got it.
    Secretary Perry. But----
    The Chairman. That is very politically correct.
    Secretary Perry. ----more importantly, we are going to be 
open to all the members as they lay out their concerns about 
the budget. And at the end of the process we will take your 
directions and with as efficient and as responsible way as we 
can, to deliver on that, obviously staying within the statutory 
requirements of the law.
    The Chairman. We appreciate that.
    Senator Hoeven, we are just wrapping up, but Senator King, 
you wanted to have a final comment and then we will let Senator 
Hoeven wrap.
    Senator King. Thank you, Madam Chair.
    Just a quick suggestion on quantum. I sit on a couple of 
other committees dealing with national security. There are lots 
of people in the United States Government working on quantum, 
like the intelligence agencies and the Defense Department. I 
have a suggestion. You might convene a quantum council to be 
sure that there is a high level of coordination so we are not 
duplicating, because this is expensive and important work.
    Secretary Perry. Yes, absolutely.
    Senator King. So to the extent you can appoint yourself 
Quantum Tsar to bring together the----
    Secretary Perry. I appreciate your confidence. There may be 
somebody even substantially better to do that, but I'm pretty 
good about getting people together.
    Senator King. Well, you understand the point.
    Secretary Perry. Absolutely.
    Senator King. You can perform a convening function.
    Secretary Perry. Yup.
    Senator King. And I think it is important, because this is 
a major initiative of the United States Government----
    Secretary Perry. Yes, sir.
    Senator King. ----that is taking place, I know, in three or 
four or five different places and probably others. I hope you 
can look into that.
    Secretary Perry. We have three national labs that focus on 
that now. But you are absolutely correct----
    Senator King. But there are other people, NNSA----
    Secretary Perry. NNSA, DoD, DARPA, all the other agencies 
of government out there that have----
    Senator King. Let's get them in the same room just 
occasionally, every quarter, perhaps, to talk about, okay, what 
are you doing? What are you doing? So that we are----
    Secretary Perry. Good idea, sir.
    Senator King. Thank you.
    Secretary Perry. We're on it.
    Senator King. Thank you, Madam Chair.
    Secretary Perry. Thank you.
    The Chairman. Senator King, I think the quantum initiative 
legislation that we passed has some of what you are talking 
about. I don't think it designates a Quantum Tsar, though, so 
we will have to go back and take a look at that.
    [Laughter.]
    Senator Hoeven, we have had a good exchange with the 
Secretary here.
    Senator Hoeven. Thank you, Madam Chairman. I appreciate it.
    Governor, good to see you.
    Secretary Perry. Hey, gov.
    Senator Hoeven. You are looking well.
    Secretary Perry. How's Mikey?
    Senator Hoeven. Doing good, doing good.
    How is Anita?
    Secretary Perry. She's really good, thank you.
    Senator Hoeven. Yeah, yeah. Good to see you.
    Thanks for all you are doing.
    This time of year it starts to get pretty warm in the 
Virginia-DC area and it gets pretty hot down in Texas, but a 
nice cool place to go this time of year, where they just have 
great weather as well as fabulous people is my home State of 
North Dakota.
    The Chairman. I thought this was another invitation to the 
Arctic. I just teed him up for that.
    Senator Hoeven. Exactly.
    The Chairman. So----
    Senator Hoeven. See, I mean, we have a great Chairman, you 
know, who thinks the right way about things.
    And so, on your way up to Alaska----
    [Laughter.]
    ----you would want to stop in North Dakota and we had you 
out there and, of course, you did a great job, saw some of the 
things we are doing out there, but we didn't get you over to 
Grand Forks to the Energy Environmental Research Center.
    Secretary Perry. Yeah.
    Senator Hoeven. Which you need to see because they are 
doing amazing stuff, and it is something that is near and dear 
to what you worked on for a long time and that is carbon 
capture and sequestration.
    And so, I have worked on the Approps side to make sure that 
we have research funding on this carbon capture and 
sequestration piece, both for fossil fuels but also on the 
renewable side. We have projects going on out there.
    Project Tundra where, you know, we are capturing it off the 
coal-fired electric plants and we've got, like you down in 
Texas, we have the latest technology in the coal field and we 
both have lignite coal. But we actually have to start capturing 
and sequestering it, and commercial viability is the key which 
is why it is not just the company is putting up money, but the 
State of North Dakota is putting up money just like the State 
of Texas did and DOE. Then we also have ethanol plants that 
want to capture CO<INF>2</INF> and put it down a hole as well 
so they can meet some of the low carbon requirements like on 
the West Coast and that kind of thing for renewable fuel.
    The first question is, can we get you out there to take a 
look at this stuff and anything else you want in oil and gas? 
You know, we are up to 1.4 million--we are chasing Texas hard--
we are up to 1.4 million barrels a day now.
    Secretary Perry. I talked to Governor Burgum yesterday----
    Senator Hoeven. I know he was here.
    Secretary Perry. ----about some projects that we can talk 
about offline. But I mean just you guys have some amazing 
potential there and in an all-of-the-above energy strategy with 
taking the associated gas that's actually restricting some of 
your crude production now and finding a way to get that sent to 
the, you know, the most likely, the West Coast and then you put 
your CCUS into that field, you get the associated gas off, you 
get the secondary and tertiary push from the emissions off of 
that carbon capture. I mean, the energy production in North 
Dakota can be stunningly powerful for the United States.
    Senator Hoeven. Well, it is an economic win, it is an 
environmental win, and it is a national security win.
    But we have to get to commercial viability for the carbon 
capture. Technologically we can do it, but we have to get these 
projects going.
    And I want to commend you. You just announced your regional 
initiative to accelerate carbon capture at $20 million for that 
project. That is something we put in Approps, and now you 
announced the criteria so that folks can come forth and start 
utilizing it.
    Secretary Perry. Yup.
    Senator Hoeven. And then the other one is the CarbonSAFE 
program, Regional Carbon Sequestration Partnership, RCSP.
    So both Project Tundra, which is a group of the latest, 
greatest coal-fired electric plants, the State of North Dakota 
and University of North Dakota, EERC are working on that. So we 
are not coming to you and saying, hey, fund us. We are coming 
to you and saying, be our partner.
    And then the same thing--we are a microcosm of what the 
country sees as a whole where we have to get traditional fossil 
fuel energy working with the renewable world together.
    These programs are involved, both biofuel and ethanol, as 
well as the oil and gas.
    It is the kind of thing where if we can get it done, it is 
an economic win, it is an environmental win, and it is a 
national security win. It is the same thing our country is 
doing on a macro level, you know, we are trying to crack that 
code. Same thing with hydraulic fracturing. When I started as 
Governor, we produced less than 100,000 barrels a day. Now it 
is 1.4 million because we cracked the code on hydraulic 
fracturing. Same thing in Texas, right?
    But we need you out there. We need you, because we have 
been talking about carbon capture and storage but we are not 
doing it. We are not at commercial viability. When we get 
commercial viability, we will have cracked the code, not just 
for here, but you know, we will get China.
    Secretary Perry. Yup, around the world.
    Senator Hoeven. Exactly.
    So we need you out there. We need you to help us with 
these. We need to help take that next step from the R&D to 
commercial viability. And you are the guy, I mean, this is 
right in your wheelhouse. So we need your help with it.
    Secretary Perry. You just mentioned two projects that we're 
working on that funded, one of them we're funding, the other 
one we've got a FOA out on it so--on the carbon storage 
assurance facility. So I think we're headed in the right 
direction.
    Senator Hoeven. Yes.
    Secretary Perry. And then more importantly, we'll follow 
your lead, sir.
    Senator Hoeven. And obviously, we have been working with 
our Chairman and others, then we have just got to find a way.
    Whether you want traditional energy or renewable energy, we 
have got to have transportation. We have to have pipelines. We 
have to have transmission lines. We have to have LNG 
facilities. We have to build that stuff, and it is not just 
stronger or better environmentally, it is safer. We are taking, 
we are replacing old infrastructure with the latest, greatest, 
safest infrastructure. It is a safety issue too.
    Secretary Perry. And Madam Chair, I would be remiss if I 
didn't remind you that exactly what Senator Hoeven is talking 
about and getting a full contingent on FERC. And that, of 
course, will come through your Committee.
    Thank you for all the work that you've done to get our 
members, but I don't think there's anything more important in 
light of what you talk about on infrastructure, than get a 
fully functioning Federal Energy Regulatory Commission and 
getting those permits done and letting Americans get to work 
and get this product to the world market.
    Senator Hoeven. So, you will come?
    Secretary Perry. Yes, sir.
    Senator Hoeven. Thank you.
    Secretary Perry. Yes, sir.
    Senator Hoeven. And thanks for all you are doing, your 
leadership.
    Secretary Perry. It's still the coolest job I've ever had, 
sir----
    Senator Hoeven. Well, you are the right guy to do it.
    Secretary Perry. ----not the best one----
    Senator Hoeven. We appreciate it.
    Secretary Perry. ----but the coolest.
    [Laughter.]
    Senator Hoeven. I know what the best one was.
    Secretary Perry. Yeah, I know----
    [Laughter.]
    ----same one you had.
    The Chairman. Well, Secretary Perry, thank you.
    Thank you for being here. Thank you for, as Senator Wyden 
would put it, your Perry candor, which is appreciated.
    I understand that sometimes defending the budget at a time 
when everybody is looking to make sure that we are making 
necessary cuts and sometimes very, very hard cuts, that 
sometimes, specific provisions are really hard to defend and 
yet, that is your job.
    Secretary Perry. Yes, ma'am.
    The Chairman. You have been deft this morning, and I 
appreciate that.
    Secretary Perry. Thank you.
    The Chairman. But I fully appreciate, again, your reminder 
to us that you know the drill around here and we look forward 
to working directly with you, directly with your team to help 
accomplish some of the goals and really significant initiatives 
where we feel that we can make a difference when it comes to 
this new energy reality that we have been blessed with here in 
this country.
    So thank you----
    Secretary Perry. Thank you.
    The Chairman. ----for your time and your leadership.
    Secretary Perry. Thank you, Madam Chair.
    The Chairman. With that, we stand adjourned.
    [Whereupon, at 12:08 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------  
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              

</pre></body></html>
